No. IN THE SUPREME COURT OF THE
UNITED STATES
JASON AVERY ANDERSON,
Petitioner
v.
COMMONWEALTH OF VIRGINIA
Respondent
CERTIFICATE OF SERVICE
I, Dale Jensen, a member of the Bar of this Court,
certify that on March 1, 2021, a copy of a Petition
for Writ of Certiorari in the above styled case and
a copy of this certificate were sent via priority
mail to the US Supreme Court for delivery to the
Clerk’s Office. I further certify that a true and
correct copy of the Petition for Writ of Certiorari
was sent by United States Mail on this date to:
Attorney General’s Office
Counsel for Respondent
900 East Main Street
Richmond, Virginia 23219
Executed on March 1, 2021
/s/Dale R. Jensen
Dale R. Jensen
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

